              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
Central Office Expenses for the
Thomas Jefferson National
Accelerator Facility




DOE/IG-0629                                 December 2003
CENTRAL OFFICE EXPENSES FOR THE THOMAS JEFFERSON
NATIONAL ACCELERATOR FACILITY


TABLE OF
CONTENTS



              Central Office Expenses

              Details of Finding ................................................................................ 1

              Recommendations and Comments ................................................. 3


              Appendices

              Objective, Scope, and Methodology ............................................... 5

              Management Comments ................................................................... 7
CENTRAL OFFICE EXPENSES

Claimed and Reimbursed   The Southeastern Universities Research Association is the Department
Costs                    of Energy's (Department) contractor for the operation of the Thomas
                         Jefferson National Accelerator Facility (Jefferson Lab). The Jefferson
                         Lab contract provided for reimbursement of central office expenses that
                         are allowed by the cost principles contained in Office of Management
                         and Budget Circular A-122, Cost Principles for Non-Profit
                         Organizations. In general, central office expenses are general and
                         administrative expenses incurred by a contractor. Among other things,
                         for a cost to be allowable it must be reasonable, allocable, conform to
                         limitations and exclusions set forth in the principles and in the contract,
                         and be adequately documented. We observed, however, that the
                         Department reimbursed the contractor for a number of costs that were
                         unallowable or not adequately supported. Specifically, in Fiscal Years
                         (FY) 2000, 2001, and 2002, the Department reimbursed the contractor
                         for central office expenses that were prohibited by the contract or cost
                         principles or were not allocable to Jefferson Lab. We also noted other
                         costs for salaries, employee benefits, and administrative expenses that
                         were not adequately supported.

                         Over a 35- month period, the Department reimbursed the contractor for
                         expenses that were prohibited by the contract and cost principles.
                         These expenses included items such as operating deficits from a
                         residence facility, investment management costs, expenses associated
                         with the contractor's non-Jefferson Lab business segments, and
                         entertainment related costs. For example, the contractor was
                         reimbursed for items such as:

                            •   Expenses of $215,000 for deficits incurred in the operation of
                                the contractor's residence facility even though such costs were
                                specifically prohibited by the contract;
                            •   Costs of $322,000 associated with management of the
                                contractor's investment portfolio, an expense identified by cost
                                principles as unallowable;
                            •   Charges of $203,000 attributable to the contractor's
                                non-Jefferson Lab business segments; and,
                            •   Other expenses for items such as alcoholic beverages, employee
                                commuting expenses, local meals for employees who were not
                                in travel status, contributions, public relations costs, and
                                entertainment expenses including receptions and holiday parties.




Page 1                                                                          Details of Finding
                       We also observed that salary, benefit, and administrative expense
                       reimbursements made by the Department were not properly supported.
                       While the contractor charged expenses based on the percentage of effort
                       that each central office employee devoted to Jefferson Lab contract
                       activities, the only supporting records provided were affidavits that
                       were not timely, sufficient, nor always signed by employees. For
                       example, the affidavits did not adequately support the amount of
                       employee effort devoted to the contract because they were not prepared
                       until 5 to 29 months after completion of work, were prepared to support
                       an entire year of effo rt, and were frequently not prepared or signed by
                       the employee performing the work. Instead, the affidavits were signed
                       by three senior contractor officials.


Department Oversight   Payments to the contractor for unallowable and unsupported expenses
                       were not identified and corrected because the Oak Ridge Operations
                       Office (Oak Ridge) did not provide adequate financial oversight of the
                       contractor. Prior to November 1999, the contractor was not required to
                       provide Oak Ridge with details of its actual central office expenses
                       because expenses were covered by a fixed management allowance.
                       After the contract was modified, however, Oak Ridge did not increase
                       its financial reviews to ensure that claimed expenses were allowable
                       and properly supported. The lack of financial reviews or close attention
                       to charging methods prevented Oak Ridge from identifying the fact that
                       the contractor did not have a supportable method for charging salaries,
                       employee benefits, and certain administrative costs to the contract.

                       For example, Oak Ridge did not require the contractor to submit details
                       of its central office expenses, even though the requirement for detailed
                       expense information was spelled out in the contract. The contractor
                       was required to submit annual proposals, 60 days before the start of
                       each fiscal year, to provide details of its central office expenses and
                       certify that the proposals contained no unallowable expenses. Oak
                       Ridge was to use these proposals to determine the amount that it would
                       pay the contractor for central office expenses during the coming year.
                       However, for the three fiscal years we reviewed, Oak Ridge agreed to
                       pay the contractor about $4.9 million without obtaining detailed
                       certified proposals.

                       In addition, the contract required the contractor to report its actual
                       central office expenses within 120 days after the end of each fiscal year.
                       Oak Ridge, however, did not enforce this provision and continued to
                       reimburse the contractor even though the expense report for FY 2000



Page 2                                                                       Details of Finding
                      was not submitted until March 2002. Besides not being timely, this
                      report and reports for FY 2001 and FY 2002 did not provide sufficient
                      detail for Oak Ridge to determine whether it contained unallowable
                      costs. Neither Oak Ridge nor its Jefferson Lab Site Office took action
                      to obtain clarifying or supporting information regarding claimed central
                      office expenses.


Operational Impacts   Lack of attention to contractor claims may have reduced the general
                      effectiveness of Jefferson Lab by depriving it of funds that could have
                      been used to satisfy operational needs, and substantially increased the
                      risk that unallowable costs would be incurred and not be detected.
                      Funds used to reimburse the contractor for unallowable costs could
                      have been used to address budgetary shortfalls or enhance operations or
                      quality of science at this important national user facility. Without
                      changes, the Department could continue to significantly overpay the
                      contractor for central office expenses while receiving minimal
                      assurance that the amounts claimed are equitable and reasonable.


                      We recommend that the Manager, Oak Ridge Operations Office:
RECOMMENDATIONS
                         1. Make a final determination regarding the allowability of the
                            contractor's home office expenses and recover all overpayments;

                         2. Enhance financial oversight to ensure that future payments only
                            cover allowable expenses;

                         3. Enforce contractual reporting and certification requirements;
                            and,

                         4. Ensure that the contractor develops a supportable method for
                            determining the expenses that are to be reimbursed.


                      Management concurred with our recommendations and agreed to take
MANAGEMENT REACTION   action regarding the questioned costs. Management also agreed to
                      enhance financial oversight to ensure that future payments only cover
                      allowable expenses and that the contractor develops a supportable
                      method for determining expenses that are to be reimbursed.
                      Management indicated that it will enforce contractual reporting and




Page 3                                                 Recommendations and Comments
                   certification requirements by requiring the contractor to submit
                   sufficiently detailed reports and certifications within the timeframes
                   established by the contract. Management's comments are included as
                   Appendix 2.


AUDITOR COMMENTS   Management's comments are responsive to our recommendations.




Page 4                                                                         Comments
Appendix 1

OBJECTIVE     The objective of this audit was to determine whether the Department
              paid for only those central office expenses that were allowed by the cost
              principles and the contract.


SCOPE         The audit was performed as part of our audit of costs claimed for
              Jefferson Lab under contract DE-AC05-84ER40150 for FYs 2000,
              2001, and 2002. The audit was performed at Jefferson Lab in Newport
              News, Virginia, and at the contractor's office in Washington, D.C., from
              April to September 2003. The audit scope was limited to Jefferson Lab
              costs, central office expenses, and fees claimed for FYs 2000, 2001, and
              2002. In this report, we are presenting a summary of our findings
              regarding central office expenses. Details of central office expenses
              questioned and the result of our audit of Jefferson Lab costs were
              provided to Oak Ridge in a separate audit report.


METHODOLOGY   To accomplish the audit objective, we:

                 •   Researched applicable laws, regulations, and contract terms
                     relevant to reimbursement of central office expenses;

                 •   Reviewed contractors’ expense reports submitted to the
                     Department;

                 •   Tested expense transactions by tracing them to books of original
                     entry and supporting records and documentation;

                 •   Evaluated the contractor's method of computing the amount of
                     central office expenses that were charged to the contract; and,

                 •   Reviewed Oak Ridge's and the Jefferson Lab Site Office's
                     oversight of central office expenses.

              The audit was performed in accordance with generally accepted
              Government auditing standards that applied to this financial-related
              audit. Criteria used in evaluating the claimed costs included the terms
              of the contract and applicable cost principles. We obtained a sufficient
              understanding of the contractor's central office cost accounting system
              and internal controls to plan the audit and to determine the nature,




Page 5                                         Objective, Scope, and Methodology
Appendix 1 (continued)

                     timing, and extent of tests to be performed. Our purpose was not to
                     form an opinion on the cost accounting systems and internal controls.
                     We relied on computer-processed data to accomplish our audit
                     objective. We conducted limited tests to ensure reliability of the data.

                     Management waived the exit conference.




Page 6                                                Objective, Scope, and Methodology
Appendix 2




Page 7       Management Comments
Appendix 2 (continued)

                                                                                             Attachment 1

                   OAK RIDGE OPERATIONS OFFICE COMMENTS ON
                   DRAFT INSPECTOR GENERAL REPORT ENTITLED
                        "CENTRAL OFFICE EXPENSES FOR THE
                THOMAS JEFFERSON NATIONAL ACCELERATOR FACILITY"


     RESPONSE TO RECOMMENDATIONS:

     1. That the Manager, Oak Ridge Operations Office make a final determination
        regarding the allowability of costs incurred by SURA for home office expenses and
        recover all overpayments.

         Response: Concur.

         ORO will make a determination regarding the allowability of cost within 90 days after
         resolution of the False Claims Act (FCA) action or as otherwise directed by the OIG
         concerning questioned costs appropriate for administrative disposition by DOE and not
         included in the FCA action.

     2. That the Manager, Oak Ridge Operations Office enhance financial oversight to
        ensure that future payments are only for allowable expenses.

         Response: Concur. DOE is in the final year (fiscal year 2004) of its performance-
         based management contract with SURA, and SURA submitted a cost proposal on
         September 15, 2003, for the estimated allocable portion of Central Office Expenses for
         fiscal year 2004 which is based on a revised allocation methodology for Central Office
         Expenses. At that time, SURA submitted a revised allocation methodology for Cost
         Accounting Standards Board Disclosure Statement, Part VIII – Home Office Expenses,
         describing its proposed Central Office Expenses allocation methodology. ORO will
         review the proposal for compliance with applicable cost principles and determine if the
         SURA financial system can adequately support the proposed methodology. If both
         conditions are met, ORO will, by January 31, 2004, after giving SURA the appropriate
         amount of time to prepare a cost impact statement for the proposed revised allocation
         methodology, make a determination as to whether the change is desirable and not
         detrimental to the Government and complete negotiations with SURA on the
         predetermined fiscal year 2004 Central Office Expenses.

         As it relates to the yearend actual allowable incurred costs report (for fiscal years 2003
         and 2004), ORO will direct SURA to provide sufficient amplifying information in its
         Central Office Expenses reports of actual allowable incurred costs, due within 120 days




Page 8                                                                           Management Comments
Appendix 2 (continued)

           after the end of each fiscal year, in sufficient detail to allow DOE to determine the
           propriety of specific charges. Within 30 days of receipt of the fiscal years 2003 and
           2004 reports to DOE, the Oak Ridge Financial Service Center will review the SURA
           reports and provide a recommendation to the DOE Contracting Officer on the
           adequacy of the report for negotiating the allocable portion of SURA's Central Office
           Expenses in accordance with cost principles contained in OMB Circular A-122.

           As it relates to any follow-on contract for the management and operation of Jefferson
           Lab, ORO will re-evaluate the Central Office Expenses contractual provision H.29 in
           light of the contractor's allocation methodology and the issues outlined by the OIG.

         3. That the Manager, Oak Ridge Operations Office enforce contractual reporting
            and certification requirements.

           Response: Concur. ORO will require SURA to submit sufficiently detailed reports
           and certifications within the timeframes established by the contract. As we mo ve
           forward, we will evaluate the fiscal years 2003 and 2004 yearend Central Office
           Expenses reports of actual allowable incurred costs, as well as the September 15,
           2003, cost proposal for the estimated allocable portion of Central Office Expenses for
           fiscal year 2004 in light of the legal/contractual requirements, the Department's
           authority and the issues being addressed by SURA.

         4. That the Manager, Oak Ridge Operations Office ensure that the contractor
            develops a supportable method for determining the expenses that are to be
            reimbursed.

           Response: Concur. On September 15, 2003, SURA submitted its cost proposal for
           the estimated allocable portion of Central Office Expenses for fiscal year 2004 which
           is based on a revised allocation methodology for Central Office Expenses. At that
           time, SURA also submitted a revised Cost Accounting Standards Board Disclosure
           Statement, Part VIII – Home Office Expenses, describing its proposed Central Office
           Expenses allocation methodology. ORO will review the proposal for compliance with
           applicable cost principles and determine if the SURA financial system can adequately
           support the proposed methodology. If both conditions are met, ORO will, by January
           31, 2004, after giving SURA the appropriate amount of time to prepare a cost impact
           statement of the proposed revised allocation methodology, make a determination as to
           whether the change is desirable and not detrimental to the Government, and complete
           negotiations with SURA on the predetermined fiscal year 2004 Central Office
           Expenses. Of course, the final determination of allowability will be pending the
           routine OIG Cost Incurred Audits for questionable costs for those respective years and
           the Contracting Officer's determination of cost allowability.




Page 9                                                                          Management Comments
                                                                              IG Report No.: DOE/IG-0629

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________            Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www. ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
